i
I

C@OQCKLE

. . E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1088

DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,

as parents and next friends of A.N. and R.N.,

Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent,

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2999 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 3rd day of June, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & ! b ),
RENEE J. GOSS 9. ( bade :

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 40861
